June 11, 2020
BLD-221
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3568
PERCY ST. GEORGE, Appellant
v.
SUPERINTENDENT DALLAS SCI; ET AL.
(E.D. Pa. No. 2-19-cv-03963)

Present:

AMBRO, GREENAWAY, JR., and BIBAS, Circuit Judges

Submitted is Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1) in the above-captioned case.
Respectfully,
Clerk
________________________________ ORDER_________________________________
Appellant’s request for a certificate of appealability is denied.
This Court may issue a certificate of appealability “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Where,
as in this case, the District Court denies a habeas petition on procedural grounds, this stand­
ard is satisfied if jurists of reason would debate both the procedural ruling and whether the
petition states a valid claim of the denial of a constitutional right. Slack v. McDaniel, 529
U.S. 473, 484 (2000); see also Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).
Here, the District Court dismissed the petition on the procedural ground that it lacked
jurisdiction to adjudicate it because it was an unauthorized second or successive petition.
See 28 U.S.C. § 2244(b)(3)(A) (“Before a second or successive [habeas petition pursuant
to 28 U.S.C. § 2254] is filed in the district court, the applicant shall move in the appropriate
court of appeals for an order authorizing the district court to consider the application.”).
We need not decide whether jurists of reason might debate that ruling because Appellant
has not demonstrated that his § 2254 petition states a valid claim of the denial of a consti­
tutional right. In reaching this conclusion, we have considered the “Pro-se Supplemental
Memorandum of Law” attached to the notice of appeal.
We observe that Appellant’s claims relating to ineffective assistance of trial counsel are
unexhausted, see O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999) (explaining that to

exhaust a claim, a petitioner must “invok[e] one complete round of the State’s established
appellate review process”), and that Appellant may be able to raise them in a petition pur­
suant to Pennsylvania’s Post-Conviction Relief Act, see 42 Pa. Cons. Stat. §9543(a)(l)(i).
We make no comment on the timeliness or merit of such claims.
By the Court,
s/Stephanos Bibas
Circuit Judge
Dated:
MB/cc:

June 30, 2020
Percy St. George
Ronald Eisenberg, Esq.
Max C. Kaufman, Esq.

A True Copy/0 'V'/f.iio'5

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

-£l~

„au xiaNaaav

Case 2:19-cv-03963-TJS Document 10 Filed 10/07/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

PERCY ST. GEORGE
v.

MAHALLY, THE DISTRICT ATTORNEY
OF COUNTY OF PHILADELPHIA and
THE ATTORNEY GENERAL OF
THE STATE OF PENNSYLVANIA

NO. 19-3963

ORDER
NOW, this 7th day of October, 2019, upon consideration of the Petition for Writ of
Habeas Corpus (Document No. 2), the Report and Recommendation filed by United
States Magistrate Judge Thomas J. Rueter (Document No. 7), and the petitioner’s
Objection to Report and Recommendation (Document No. 8), and after a thorough and
independent review of the record, it is ORDERED that:

1.

The petitioner’s objections are OVERRULED;

2.

The Report and Recommendation of Magistrate Judge Thomas J. Rueter

is APPROVED and ADOPTED; and
3.

The Petition for Writ of Habeas Corpus is DISMISSED WITHOUT

PREJUDICE.1
4.

There is no probable cause to issue a certificate of appealability.

/s/TIMOTHY J. SAVAGE J.

1

The petitioner is not precluded from seeking permission from the Third Circuit Court of Appeals to file a
second or successive § 2254 motion.

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
PERCY ST. GEORGE

CIVIL ACTION

v.
LAWRENCE MAHALLY, et al

NO. 19-3963

REPORT AND RECOMMENDATION
THOMAS J. RUETER
United States Magistrate Judge

September 23, 2019

Presently before the court is a pro se petition for a writ of habeas corpus filed
pursuant to 28 U.S.C. § 2254 (Doc. 2). Also before the court is petitioner’s motion to proceed in
forma pauperis (Doc. 1). Petitioner is incarcerated at the State Correctional Institution located in
Dallas, Pennsylvania. For the reasons that follow, the court recommends that the motion to
proceed in forma pauperis be granted and the petition be dismissed without prejudice.

I.

BACKGROUND
Following a jury trial in October 1997, petitioner was convicted of kidnapping

and other crimes. See Commonwealth v. St. George. No. CP-51-CR-405232-1997 (C.P. Phila.
1997).1 Petitioner was sentenced in December 1997 to a fifteen- to thirty-year term of
incarceration.

l

Additional charges against petitioner were brought under separate docket numbers. See
Commonwealth v. St. George. No. CP-51-CR-403962-1997 (C.P. Phila. 1998); Commonwealth
v. St. George. No. CP-5 l-CR-404011-1997 (C.P. Phila. 1997). Petitioner also has filed a habeas
petition in this court arising from No. CP-51-CR-403962-1997 at Civ. Act. No. 18-905. The
undersigned filed a Report and Recommendation in that case on November 30, 2018,
recommending that the petition be summarily dismissed as untimely. St. George v. Mahallv.
2018 WL 6706050 (E.D. Pa. Nov. 30, 2018). The R&R was approved and adopted on December
20,2018. St. George v. Mahallv. 2018 WL 6701276 (E.D. Pa. Dec. 20. 20181. Petitioner’s
appeal to the Third Circuit Court of Appeals currently is pending. See Docs. 12, 13, 14.

On April 3, 2000, petitioner filed a petition for writ of habeas corpus in this court.
See Civ. Act. No. 00-1716 (Doc. 1). The underlying factual and procedural background was set
forth by the Honorable Louis H. Poliak in his March 30, 2009, opinion:
Petitioner’s counsel at trial and sentencing, Robert Dixon, failed to file a notice of
appeal or any other post-verdict motions on petitioner’s behalf. According to
petitioner, he requested that Dixon file an appeal.
Petitioner filed a pro se notice of appeal on February 25, 1998. Because his pro se
notice of appeal was filed later than thirty days after his sentence was entered,
petitioner’s notice of appeal was untimely. See Pa. R. App. Proc. 903(a).
Petitioner’s pro se notice of appeal was returned to him. The returned notice of
appeal was unfiled and had a notation stating that the appeal was premature. The
docket number on the returned notice of appeal had been crossed out and replaced
with the docket number of an unrelated case, still pending trial, in which
petitioner was also a defendant. Ironically, it seems that the Clerk of Courts for
the Court of Common Pleas, to whom petitioner properly mailed his notice of
appeal, had erroneously concluded that petitioner’s tardy notice of appeal was
premature because the Clerk believed, incorrectly, that the petitioner’s notice of
appeal had been filed in petitioner’s other case.
According to petitioner, he then corresponded frequently with the Clerk’s office
about his appeal. Petitioner claims that, during the course of this lengthy
correspondence, he was never told that his appeal had been filed late ....
On June 24, 1999, petitioner filed an application for leave to file an appeal nunc
pro tunc. After the court failed to act on that application, St. George filed a
petition for a writ of mandamus with the Pennsylvania Superior Court. The
Superior Court denied this petition on February 29, 2000. Then, on April 3, 2000,
petitioner filed his initial petition for a writ of habeas corpus with this court....
On September 13, 2002, petitioner filed an amended petition.. ..
In the meantime, the respondents forwarded petitioner’s June 24, 1999 motion for
leave to appeal nunc pro tunc to the Commonwealth’s PCRA unit, where it was
treated as a motion for post-trial relief. Petitioner was appointed PCRA counsel,
and that counsel filed an amended PCRA application on behalf of petitioner. On
December 30, 2002, having learned that petitioner’s case would be heard by the
state PCRA unit, I placed petitioner’s habeas case in suspense but kept the case on
my docket in case “Mr. St. George did not obtain his desired outcome at the state
level and wished to again seek relief here.” See Doc. No. 44.
2

Petitioner’s amended PCRA petition sought reinstatement of his original appellate
rights, which the PCRA court granted on April 29, 2004. On April 11, 2006,
however, the Superior Court overturned the PCRA court’s decision on the
grounds that petitioner’s PCRA petition had been untimely filed. On October 23,
2006, petitioner moved this court to reopen his case. I granted that request on
September 21, 2007, and referred the case to Judge Angell.
See id. (Doc. 78) (Opinion) (Poliak, J.).
In his decision, Judge Poliak ruled that although petitioner’s habeas petition was
untimely, petitioner was entitled to equitable tolling because the delay was caused by the Clerk
of Courts’ administrative error in confusing petitioner’s two cases. Judge Poliak appointed
counsel for petitioner, and on November 25, 2009, an amended habeas petition was filed on
petitioner’s behalf. Id (Doc. 89). An evidentiary hearing was then held in November 2011. The
case was reassigned to the Honorable Timothy J. Savage in May 2012. Id. (Doc. 130).
On August 2, 2012, Judge Savage issued an opinion conditionally granting
petitioner’s writ, finding that “in failing to consult with St. George about the possibility of filing
an appeal, even though he knew or should have known that St. George desired to appeal, St.
George’s attorney failed to provide him with objectively reasonable legal representation.” Id.
(Doc. 131). Judge Savage’s Order provided that petitioner’s conviction would be vacated and
petitioner released from custody unless the Commonwealth of Pennsylvania reinstated
petitioner’s direct appeal rights nunc pro tunc within thirty days. See id. (Doc. 132).2

2

A motion for leave to file an amended petition remains pending on this petition. See Civ.
Act. No. 00-1716 (Docs. 139, 140, 147).
3

Judge Savage’s order was docketed in the Court of Common Pleas the same day.
See No. CP-5 l-CR-405232-1997. Petitioner’s direct appeal rights were reinstated, and petitioner
filed a notice of appeal on July 15, 2013. Id. An attorney entered his appearance on petitioner’s
behalf on May 12, 2014. Id.
On May 8, 2015, petitioner filed a petition for leave to file an amended or
supplemental habeas petition pursuant to 28 U.S.C. § 2242 under his original habeas docket,
along with an accompanying memorandum of law. See Civ. Act. No. 00-1716 (Docs. 139,140).
In these filings, petitioner alleged that he was facing inordinate delay in his direct appeal and that
the state courts were “maliciously abusing [the] appellate review process,” and requested the
appointment of counsel. Ick (Docs. 140, 142). The District Attorney filed a response to
petitioner’s motion, arguing that any delay in petitioner’s case was “readily explainable” and that
any federal proceedings should be stayed. Id, (Doc. 147). Judge Savage entered an order on
August 18, 2015, denying petitioner’s motion for reappointment of habeas corpus counsel, in
part because “petitioner’s appeal before the Pennsylvania Superior Court is still pending.” Id.
(Doc. 148).
On July 1, 2015, the PCRA court entered an order pursuant to Pa. R. App. P.
1925(b), requiring petitioner to file a statement of matters complained of on appeal. See No. CP5l-CR-405232-1997. Thereafter, the PCRA docket reflects numerous continuances on
petitioner’s behalf. Id.
The Pennsylvania Superior Court issued a briefing schedule on September 1,
2016. See No. 2348 EDA 2013. On November 2, 2016, petitioner’s appeal was dismissed for

4

failure to file a brief. Id. However, the appeal was reinstated on November 29, 2016, and the
appellate court directed the trial court to issue another order pursuant to Pa. R. App. P. 1925(b).
Id.
The trial court thereafter re-filed its 1925(b) order on April 6, 2017. See No. CP51-CR-405232-1997. On April 27, 2017, petitioner’s counsel filed a statement of intent to file a
no-merit brief pursuant to Pa. R. App. P. 1925(c). Id. The trial court docket indicates that no
trial court opinion would be issued, as the judge who presided over petitioner’s trial is no longer
on the bench. Id. The docket shows that the case was returned to the Superior Court. Id.
The Superior Court issued an updated briefing schedule on November 27,2017.
See No. 2348 EDA 2013. Petitioner was granted one extension of time to file his brief, and then
his appeal was dismissed for a second time on April 6, 2018, when no brief was filed. Id.
Attached to his request to reinstate the appeal, counsel filed an application to withdraw on the
basis that the appeal was frivolous. Id. Petitioner’s appeal was again reinstated on April 23,
2018. Id. In a decision dated November 30, 2018, the Superior Court affirmed the judgment of
sentence and petition to withdraw. See Commonwealth v. St. George. 2018 WL 6259037, at *7
(Pa. Super. Ct. Nov. 30, 2018). Petitioner was then denied allowance of appeal by the
Pennsylvania Supreme Court on August 12, 2019. See Commonwealth v. St. George. 2019 WL
377379I (Table), No. 25 EAL 2019 (Pa. Aug. 12, 2019).
On January 15, 2018, petitioner filed a pro se petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254, which was docketed at Civil Action No. 18-381. See Civ. Act.
No. 18-381 (Doc. 12). The petition raised one ground for relief: Denial of Right to

5

Appeal/Inordinate Delay. Id. On August 6, 2018, the Commonwealth of Pennsylvania filed a
response to the petition, arguing that it should be dismissed as an improper successive habeas
petition. Id The court filed an R&R on August 28, 2018, recommending that petitioner’s claim
be dismissed without prejudice for failure to obtain authorization from the Court of Appeals to
file a second habeas petition. See id. The R&R was approved by Judge Savage on November
19, 2018 (Doc. 20).
The instant pro se habeas petition was filed on August 28, 2019 (“Pet.”; Doc. 2).3 The
petition raises the following grounds for relief:
1.
2.
3.
4.

Several ineffective assistance of trial counsel claims
Suggestive Identification
Prosecutorial Misconduct
Missing, Omitted and Unsigned Transcripts

(Pet. Tf 12.) Petition does not assert or demonstrate that he obtained authorization from the Third
Circuit to file his habeas petition.
n.

DISCUSSION
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) provides

a stringent set of procedures a petitioner must follow if he wishes to file a second or successive
habeas petition. The relevant procedures are set forth in 28 U.S.C. § 2244(b)(3)(A): “Before a
second or successive application permitted by this section is filed in the district court, the

3
“[A] pro se prisoner’s habeas petition is deemed filed at the moment he delivers it to
prison officials for mailing to the district court.” Bums v. Morton, 134 F.3d 109, 113 (3d Cir.
1998). The court presumes that the petition was delivered on the date it was executed by
petitioner. See Baker v. United States, 670 F.3d 448, 451 n.2 (3d Cir. 2012).
6

applicant shall move in the appropriate court of appeals for an order authorizing the district court
to consider the application.”
The impact of this statutory provision was discussed by the Third Circuit in
Robinson v. Johnson. 313 F.3d 128, 139 (3d Cir. 2002), cert, denied. 540 U.S. 826 (2003). The
court noted that with the passage of AEDPA, “[ujnless the court of appeals grants such
permission [to file a successive petition], the district court may not consider the second or
successive petition.” Id. Indeed, the United States Supreme Court affirmed that if a petitioner
does not receive the required authorization from the court of appeals before filing a second or
successive petition, the district court is “without jurisdiction to entertain it.” Burton v. Stewart,
549 U.S. 147, 153 (2007).
As noted supra, petitioner previously filed two petitions for a writ of habeas
corpus in this court pursuant to 28 U.S.C. § 2254, which attacked petitioner’s conviction and/or
sentence in Commonwealth v. St. George. No. CP-51-CR-405232-1997(C.P. Phila. 1997).
Petitioner’s first habeas petition was considered on the merits and granted. See Civ. Act. No. 001716. However, petitioner did not seek or obtain the requisite certification from the Third
Circuit before filing the second habeas petition, and this court was without jurisdiction to
consider the matter. See Civ. Act. No. 18-381. Like the second petition, this court remains
without jurisdiction to consider the instant matter. In the petition now before the court/petitioner
again attacks his conviction and/or sentence in Commonwealth v. St. George, No. CP-51-CR405232-1997 (C.P. Phila. 1997).

7

Faced with an unapproved second or successive habeas petition, the court must
dismiss it or transfer it to the appropriate court of appeals pursuant to 28 U.S.C. § 1631.
Robinson, 313 F.3d at 139-40 (citation omitted). Under 28 U.S.C. § 1631, a court should
transfer a second or successive petition to the Third Circuit only if it is “in the interest of
justice.”
There is no indication that petitioner obtained the requisite authorization from the
Third Circuit Court of Appeals to file the instant habeas petition. The court concludes that it
would not be in the interest of justice to transfer this case to the Third Circuit. This decision not
to transfer the petition in no way precludes petitioner from seeking permission from the Third
Circuit to file a second or successive § 2254 motion if he elects to do so.
III.

CONCLUSION
Accordingly, the court makes the following:
RECOMMENDATION
AND NOW, this 23rd day of September, 2019, the court respectfully recommends

that the motion to proceed in forma pauperis (Doc. 1) be GRANTED, and the petition for a writ
of habeas corpus be DISMISSED WITHOUT PREJUDICE for failure to obtain authorization
from the Court of Appeals to file a successive habeas petition. The court further recommends
and that no certificate of appealability (“COA”) be granted.4

4

The COA should be denied because petitioner has not shown that reasonable jurists could
debate whether his petition should be resolved in a different manner or that the issues presented
are adequate to deserve encouragement to proceed further. See Miller-El v. Cockrell, 537 U.S.
322, 336 (2003).

8

-Vi-

0,, XIQNaddV

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

:

No. 25 EAL 2019

Respondent
Petition for Allowance of Appeal from
the Order of the Superior Court
v.

PERCY ST. GEORGE
Petitioner

ORDER

PER CURIAM
AND NOW, this 12th day of August, 2019, the Petition for Allowance of Appeal is
DENIED.

A True Copy
As Of 08/12/2019

Attest’

i

Patricia A. Johfrson
Chief Clerk
Supreme Court of Pennsylvania

-SL-

..a,, xiaNSddv

J-S59015-18

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee
v.
PERCY ST. GEORGE
Appellant

No. 2348 EDA 2013

Appeal from the Judgment of Sentence December 3, 1997
In the Court of Common Pleas of Philadelphia County
Criminal Division at No(s): CP-51-CR-0405232-1997
BEFORE: GANTMAN, P.J., LAZARUS, J., and OTT, J.
MEMORANDUM BY GANTMAN, P.J.:

FILED NOVEMBER 30, 2018

Appellant, Percy St. George, appeals from the judgment of sentence
nunc pro tunc entered in the Philadelphia County Court of Common Pleas,
following his jury trial convictions for four counts of robbery, six counts of
kidnapping, and one count each of recklessly endangering another person
("REAP"), receiving stolen property ("RSP"), prohibited offensive weapons,
firearms not to be carried without a license, causing or risking a catastrophe,
and conspiracy.1 We affirm and grant counsel's petition to withdraw.
The relevant facts and procedural history of this case are as follows. On
February 6-7, 1997, Appellant and his co-conspirators kidnapped several
employees of the Financial Exchange Company in Philadelphia and held them

1 18 Pa.C.S.A. §§ 3701(a)(1), 2901(a), 2705, 3925(a), 908(a), 6106(a),
3302, 903(a), respectively.

J-S59015-18

hostage in order to carry out what proved to be an unsuccessful scheme to
seize and rob an armored truck carrying cash and food stamps. The scheme
included forcing the employees into a van at gunpoint and taking them to
another location to obtain information about the armored truck delivery and
then taking them to one victim's home, where her two young children were
present. The plan was to accompany one victim to the Exchange the next day
to rob it.
A jury convicted Appellant of the offenses on October 22, 1997.

On

December 3, 1997, the court sentenced Appellant to an aggregate term of 15
to 30 years' imprisonment. Appellant did not file post-sentence motions or a
direct appeal.

Between 1999 and 2016, however, Appellant made multiple

attempts to have his direct appeal rights reinstated nunc pro tunc. The PCRA
court twice reinstated his direct appeal rights nunc pro tunc, in 2004 and in
2006, but each of those appeals was dismissed or quashed for failure to file a
brief or for having been raised in an untimely PCRA petition.
On November 25, 2009, Appellant filed an amended counseled petition
for writ of habeas corpus in federal court (he had originally filed one pro se on
March 27, 2000, which was suspended during the pendency of Appellant's
PCRA proceedings). The federal court granted Appellant conditional habeas
relief on August 2, 2012, vacating the judgment of sentence until his appellate
rights were reinstated nunc pro tunc by the state court. Though the August
2, 2012 order was noted on the trial court's docket, no formal order was

- 2 -

J-S59015-18

entered reinstating Appellant's direct appeal rights nunc pro tunc.
On July 15, 2013, Appellant filed a nunc pro tunc appeal.

The court

appointed counsel on May 12, 2014. On February 19, 2016, this Court issued
a rule to show cause why the appeal should not be quashed as taken from an
order not entered on the appropriate docket. Appellant filed a response on
February 29, 2016, stating the federal court's August 2, 2012 order should be
considered a nunc pro tunc reinstatement of Appellant's direct appeal rights.
On March 8, 2016, the Commonwealth filed an answer, agreeing that the
federal court's order and the trial court's docketing of the federal court's order
served to reinstate Appellant's direct appeal rights nunc pro tunc. Upon review
of the various responses, this Court discharged the rule to show cause.
On November 2, 2016, however, this Court dismissed the appeal for
failure to file a brief. Appellant filed an application to reinstate the appeal on
November 18, 2016, and on November 29, 2016, this Court reinstated the
appeal and remanded for the trial court to order Appellant to file a concise
statement of errors complained of on appeal pursuant to Pa.R.A.P. 1925(b).
The trial court ordered the Rule 1925(b) statement on April 6, 2017. In lieu
of a concise statement, counsel filed a Rule 1925(c)(4) statement on April 27,
2017, of his intent to file an Anders brief.

On April 6, 2018, this Court

dismissed the appeal again for failure to file a brief.

Appellant filed an

application to reinstate the appeal on April 17, 2018, which this Court granted
on April 23, 2018. On the same day, counsel filed an application to withdraw

- 3 -

J-S59015-18

and an Anders brief in this Court.
As a preliminary matter, counsel seeks to withdraw his representation
pursuant to Anders v. California, 386 U.S. 738, 87 S.Ct. 1396, 18 L.Ed.2d
493 (1967) and Commonwealth v. Santiago, 602 Pa. 159, 978 A.2d 349
(2009). Anders and Santiago require counsel to: (1) petition the Court for
leave to withdraw, certifying that after a thorough review of the record,
counsel has concluded the issues to be raised are wholly frivolous; (2) file a
brief referring to anything in the record that might arguably support the
appeal; and (3) furnish a copy of the brief to the appellant and advise him of
his right to obtain new counsel or file a pro se brief to raise any additional
points the appellant deems worthy of review. Santiago, supra at 173-79,
978 A.2d at 358-61.
sufficient.

Substantial compliance with these requirements is

Commonwealth v. Wrecks, 934 A.2d 1287, 1290 (Pa.Super.

2007). After establishing that counsel has met the antecedent requirements
to withdraw, this Court makes an independent review of the record to confirm
that the appeal is wholly frivolous. Commonwealth v. Palm, 903 A.2d 1244,
1246 (Pa.Super. 2006).
In Santiago, supra, our Supreme Court addressed the briefing
requirements where court-appointed appellate counsel seeks to withdraw
representation:
Neither Anders nor [Commonwealth v. McClendon, 495
Pa. 467, 434 A.2d 1185 (1981)] requires that counsel's brief
provide an argument of any sort, let alone the type of
argument that counsel develops in a merits brief. To repeat,
■

- 4 -

J-S59015-18

what the brief must provide under Anders are references
to anything in the record that might arguably support the
appeal.

Under Anders, the right to counsel is vindicated by
counsel's examination and assessment of the record and
counsel's references to anything in the record that arguably
supports the appeal.
Santiago, supra at 176, 177, 978 A.2d at 359, 360. Thus, the Court held:
[I]n the Anders brief that accompanies court-appointed
counsel's petition to withdraw, counsel must: (1) provide a
summary of the procedural history and facts, with citations
to the record; (2) refer to anything in the record that
counsel believes arguably supports the appeal; (3) set forth
counsel's conclusion that the appeal is frivolous; and (4)
state counsel's reasons for concluding that the appeal is
frivolous. Counsel should articulate the relevant facts of
record, controlling case law, and/or statutes on point that
have led to the conclusion that the appeal is frivolous.
Id. at 178-79, 978 A.2d at 361.
Instantly, Appellant's counsel has filed a petition to withdraw.

The

petition states counsel conducted a conscientious review of the record and
determined the appeal is wholly frivolous.

Counsel also supplied Appellant

with a copy of the brief and a letter explaining Appellant's right to retain new
counsel or to proceed pro se to raise any additional issues Appellant deems
worthy of this Court's attention.

In the Anders brief, counsel provides a

summary of the facts and procedural history of the case. Counsel's argument
refers to relevant law that might arguably support Appellant's issues. Counsel
further states the reasons for his conclusion that the appeal is wholly frivolous.

J-S59015-18

Therefore, counsel has substantially complied with the technical requirements
of Anders and Santiago.
Appellant has not responded to the Anders brief pro se or.with newly
retained private counsel.

Counsel raises the following issue on Appellant's

behalf:
IS [APPELLANT'S] APPEAL FRIVOLOUS SUCH
COUNSEL SHOULD BE PERMITTED TO WITHDRAW?

THAT

(Anders Brief at 2).
Appellant argues the trial court should have granted his motion to
suppress the out-of-court photo array identifications, where the procedures
used were unduly suggestive because Appellant's photograph occupied the
first position in the arrays.

Appellant also avers the evidence presented at

trial was insufficient to support the various convictions.

Finally, Appellant

raises an unspecified allegation of trial counsel's ineffectiveness.2 Appellant

2 "

[A]s a general rule, a petitioner should wait to raise claims of ineffective
assistance of trial counsel until collateral review." Commonwealth v. Grant,
572 Pa. 48, 67, 813 A.2d 726, 738 (2002). Our Supreme Court has recognized
two very limited exceptions to the general rule in Grant regarding when trial
courts may review ineffective assistance of counsel claims: (1) in
extraordinary circumstances where claims of trial counsel's ineffectiveness are
apparent from the record and immediate consideration best serves the
interests of justice and/or (2) where there is good cause shown and review of
the claim is preceded by a waiver of the right to seek collateral review.
Commonwealth v. Holmes, 621 Pa. 595, 598-99, 79 A.3d 562, 563-64
(2013). Neither of these exceptions applies in the present case. Therefore,
as Appellant concedes, this appeal is not the proper time to. raise or address
any ineffectiveness of counsel claim. Instead, Appellant will have to wait to
raise his claim(s) in a timely filed PCRA petition. Thus, we give this generic
ineffectiveness of trial counsel claim no further attention.
- 6 -

J-S59015-18

concludes he is entitled to some form of relief. We disagree.
We review the denial of a suppression motion as follows:
Our standard of review in addressing a challenge to a trial
court's denial of a suppression motion is limited to
determining whether the factual findings are supported by
the record and whether the legal conclusions drawn from
those facts are correct.
[W]e may consider only the evidence of the
prosecution and so much of the evidence for the
defense as remains uncontradicted when read in the
context of the record as a whole. Where the record
supports the findings of the suppression court, we are
bound by those facts and may reverse only if the court
erred in reaching its legal conclusions based upon the
facts.
Commonwealth v. Williams, 941 A.2d 14, 26-27 (Pa.Super. 2008) (e/7
banc) (internal citations and quotation marks omitted).

"It is within the

suppression court's sole province as factfinder to pass on the credibility of
witnesses and the weight to be given their testimony." Commonwealth v.
Clemens, 66 A.3d 373, 378 (Pa.Super. 2013) (quoting Commonwealth v.
Gallagher, 896 A.2d 583, 585 (Pa.Super. 2006)).
"A photographic identification is unduly suggestive when the procedure
creates a substantial likelihood of misidentification."

Commonwealth v.

Fisher, 564 Pa. 505, 522, 769 A.2d 1116, 1126 (2001), cert, denied, 535
U.S. 906, 122 S.Ct. 1207, 152 L.Ed.2d 145 (2002) (citing Commonwealth
v. Johnson, 542 Pa. 384, 396-97, 668 A.2d 97, 103 (1995), cert, denied,
519 U.S. 827, 117 S.Ct. 90, 136 L.Ed.2d 46 (1996)). "Photographs used in
line-ups are not unduly suggestive if the suspect's picture does not stand out
- 7 -

r

J-S59015-18

more than those of the others, and the people depicted all exhibit similar facial
characteristics." Fisher, supra at 522, 769 A.2d at 1126. The existence of
a single possibly suggestive element in an identification procedure does not
automatically

require

suppression

of

the

identification

evidence.

Commonwealth v. Monroe, 542 A.2d 113 (Pa.Super. 1988), appeal denied,

522 Pa. 574, 559 A.2d 36 (1989).
"Whether an out-of-court identification is to be suppressed as unreliable,
and hence violative of due process, is determined from the totality of the
circumstances." Commonwealth v. Sutton, 496 Pa. 91, 94, 436 A.2d 167,
169 (1981). Reliability of an out-of-court identification is determined under a
totality of the circumstances by considering, inter alia, the following specific
factors: "the witness' ability 'to observe the criminal act; the accuracy of the
photo array selection and other descriptions; the lapse of time between the
act and any line-up; and any failure to identify the defendant on prior
occasions/" Commonwealth v. Santiago, 579 Pa. 46, 74, 855 A.2d 682,
698 (2004) (quoting Commonwealth v. Baker, 531 Pa. 541, 614 A.2d 663
(1992)).
With respect to a sufficiency claim:
The standard we apply in reviewing the sufficiency of the
evidence is whether viewing all the evidence admitted at
trial in the light most favorable to the verdict winner, there
is sufficient evidence to enable the fact-finder to find every
element of the crime beyond a reasonable doubt.
In
applying [the above] test, we may not weigh the evidence
and substitute our judgment for the fact-finder. In addition,
we note that the facts and circumstances established by the
- 8-

J-S59015-18

Commonwealth need not preclude every possibility of
innocence. Any doubts regarding a defendant's guilt may
be resolved by the fact-finder unless the evidence is so weak
and inconclusive that as a matter of law no probability of
fact may be drawn from the combined circumstances. The
Commonwealth may sustain its burden of proving every
element of the crime beyond a reasonable doubt by means
of wholly circumstantial evidence. Moreover, in applying the
above test, the entire record must be evaluated and all
evidence actually received must be considered. Finally, the
[finder] of fact while passing upon the credibility of
witnesses and the weight of the evidence produced, is free
to believe all, part or none of the evidence.
Commonwealth v. Jones, 874 A.2d 108,120-21 (Pa.Super. 2005) (quoting
Commonwealth v. Bullick, 830 A.2d 998, 1000 (Pa.Super. 2003)).
The Pennsylvania Crimes Code defines the offense of robbery in relevant
part as follows:
§ 3701. Robbery
(a)

Offense defined.—
(1) A person is guilty of robbery if, in the course of
committing a theft, he:
(i)

inflicts serious bodily injury upon another;

(ii) threatens another with or intentionally puts him
in fear of immediate serious bodily injury;
(iii) commits or threatens immediately to commit any
felony of the first or second degree;
(iv) inflicts bodily injury upon another or threatens
another with or intentionally puts him in fear of
immediate bodily injury;
(v) physically takes or removes property from the
person of another by force however slight; or

- 9 -

J-S59015-18

18 Pa.C.S.A. § 3701(a)(1). The Crimes Code defines kidnapping as follows:
§ 2901. Kidnapping
(a) Offense defined.—... [A] person is guilty of
kidnapping if he unlawfully removes another a substantial
distance under the circumstances from the place where he
is found, or if he unlawfully confines another for a
substantial period in a place of isolation, with any of the
following intentions:
(1) To hold for ransom or reward, or as a shield or
hostage.
(2)' To facilitate commission of any felony or flight
thereafter.
(3) To inflict bodily injury on or to terrorize the victim
or another.
(4) To interfere with the performance by public officials
of any governmental or political function.
18 Pa.C.S.A. § 2901(a). Section 2705 of the Crimes Code provides:
§ 2705. Recklessly endangering another person
A person commits a misdemeanor of the second degree if.
he recklessly engages in conduct which places or may place
another person in danger of death or serious bodily injury.
18 Pa.C.S.A. § 2705. The Pennsylvania Crimes Code defines receiving stolen
property as follows:
§ 3925. Receiving stolen property
(a) Offense defined.—A person is guilty of theft if he
intentionally receives, retains, or disposes of movable
property of another knowing that it has been stolen, or
believing that it has probably been stolen, unless the
property is received, retained, or disposed with intent to

- 10 -

J-S59015-18

restore it to the owner.
18 Pa.C.S.A. § 3925(a).

The Crimes Code defines prohibited offensive

weapons as follows:
§ 908. Prohibited offensive weapons
(a) Offense defined.—A person commits a misdemeanor
of the first degree if, except as authorized by law, he makes,
repairs, sells, or otherwise deals in, uses, or possesses any
offensive weapon.
18 Pa.C.S.A. § 908(a).

Section 6106 of the Crimes Code in relevant part

provides:
§ 6106. Firearms not to be carried without a license
(a)

Offense defined.-

(1)
Except as provided in paragraph (2), any person
who carries a firearm in any vehicle or any person who
carries a firearm concealed on or about his person,
except in his place of abode or fixed place of business,
without a valid and lawfully issued license under this
chapter commits a felony of the third degree.
(2)
A person who is otherwise eligible to possess a
valid license under this chapter but carries a firearm in
any vehicle or any person who carries a firearm
concealed on or about his person, except in his place of
abode or fixed place of business, without a valid and
lawfully issued license and has not committed any other
criminal violation commits a misdemeanor of the first
degree.
18 PA.C.S.A. § 6106(a). The Crimes Code also defines the offense of risking
a catastrophe as follows:
§ 3302. Causing or risking catastrophe
(a) Causing

catastrophe.—A person

- 11 -

who

causes a

J-S59015-18

catastrophe by explosion, fire, flood, avalanche, collapse of
building, release of poison gas, radioactive material or other
harmful or destructive force or substance, Or by any other
means of causing potentially widespread injury or
damage...commits a felony of the first degree if he does so
intentionally or knowingly, or a felony of the second degree
if he does so recklessly.
(b) Risking catastrophe.—A person is guilty of a felony
of the third degree if he recklessly creates a risk of
catastrophe in the employment of fire, explosives or other
dangerous means listed in subsection (a) of this section.
18 Pa.C.S.A. § 3302. Section 903(a) of the Crimes Code provides:
§ 903. Criminal Conspiracy
(a) Definition of conspiracy.—A person is guilty of
conspiracy with another person or persons to commit a
crime if with the intent of promoting or facilitating its
commission he:
(1) agrees with such person or persons that they or
one or more of them will engage in conduct which
constitutes such crime or an attempt or solicitation to
commit.such crime;
(2) agrees to aid such other person or persons in the
planning or commission of such crime or of an attempt
or solicitation to commit such crime.

18 Pa.C.S.A. § 903(a).
Instantly, regarding Appellant's suppression motion and sufficiency of
the evidence claims, the original trial court reasoned:
[Appellant] first argues that the [c]ourt erred in
suppressing the photographic array and identifications
led to his arrest. This contention is meritless, as there
clearly probable cause for [Appellant's] arrest, and
photographic array was not suggestive.
[Appellant]

challenges

the

- 12 -

photographic

array

not
that
was
the

as

J-S59015-18

suggestive, presumably because his photograph was in the
first position. During the hearing on the Motion to Suppress,
testimony from Detective Grimm of the Philadelphia Police
Department established the process of generating a photo
lineup. The suspect is entered into the computer, and the
parameters of his build, height, and weight are determined
by the computer. The computer then brings up photographs
of other people with similar parameters and randomly
generates the order of the lineup.
The position of a suspect's photo in a randomly generated
lineup cannot be challenged as prejudicial. If this argument
was accepted, then any defendant could challenge a lineup
based on a purported dislike of the order of the photos, by
claiming their position was prejudicial. Clearly, this cannot
be allowed.
As there was no possibility of police
manipulation in this case, the photo array was not unduly
suggestive, and properly admitted.
The information that led to [Appellant's] photo being placed
in a lineup was that on February 7, 1997, Detective Senior
received information from a reliable source that an
anonymous black female had implicated [Appellant] in the
robbery by name. Based on that information, a photograph
of [Appellant] was inserted in a photo lineup, which was
subsequently shown to another suspect and two of the
victims.
Nothing about the manner in which the identifications took
place was suggestive either. The photographic array was
first shown to Jay Diaz, another suspect in the robbery and
kidnappings. Diaz positively identified [Appellant]. -Three
lineups containing possible suspects were then shown to two
of the kidnapping victims.
Both positively identified
[Appellant]. Although they were in the same house to view
the photos, one victim was taken into the kitchen to view
the photos while the other remained in the living room.
There was no opportunity for them to consult with each
other during the process of viewing the photos.
No
information was given by the Detective to suggest that the
perpetrator's photo was or was not in the array. Clearly,
based on three independent identifications of [Appellant's]
photograph by another suspect and two of the victims, there
was probable cause for an arrest warrant, and no reason to
■

- 13 -

J-S59015-18

suppress the identifications.
[Appellant's] second contention is that the evidence was
insufficient to sustain the guilty verdicts returned by the
jury. This is simply not the case. [Appellant] was identified,
both in court, and from photographic arrays, by three of the
kidnapping victims, one of his co-conspirators, and a police
officer. In addition, the fact that [Appellant's] fingerprints
were found on a newspaper in one of the vehicles used
during the robbery provided circumstantial evidence of
[Appellant's] participation in the crime.
The direct and circumstantial evidence taken together was
more than sufficient to sustain the jury's verdict of guilty.
(Trial Court Opinion, filed November 17, 2004, at 3-5) (internal citations
omitted).

The record supports the trial court's analysis.

Moreover, a

sufficiency of the evidence claim must identify the specific element or
elements of the offenses and how the evidence presented at trial failed to
establish those offenses.

Sde generally Commonwealth v. Manley, 985

A.2d 256 (Pa.Super. 2009), appeal denied, 606 Pa. 671, 996 A.2d 491 (2010).
Here, Appellant does not actually single out those elements or crimes, which
the Commonwealth failed to establish.

Therefore, we decline to address

Appellant's sufficiency claims in further detail.

Following-our— independent

review of the record, we confirm the appeal is frivolous. See Palm/ supra.
Accordingly, we affirm the judgment of sentence and grant counsel's petition
to withdraw.
Judgment of sentence affirmed.
granted.

. - 14 -

Counsel's petition to withdraw is

J-S59015-18
Judgment Entered.

lUP.
7

Joseph D. Seletyn, Esq^
Protho notary

Date: 11/30/18

- 15 -

